           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        CONTROLS FOR ISSUING
       SOCIAL SECURITY NUMBER
       VERIFICATION PRINTOUTS

   December 2007    A-04-07-27112




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      December 5, 2007                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls for Issuing Social Security Number Verification Printouts (A-04-07-27112)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           internal controls over the issuance of Social Security Number (SSN) Verification
           Printouts (SSN Printout) were effective.

           BACKGROUND

           In compliance with both the Privacy Act of 1974 (Privacy Act) and the Social Security
           Act, 1 SSA’s information disclosure policy dictates that it will protect the privacy of
           individuals to the fullest extent possible, while also permitting the exchange of
           information needed to fulfill its administrative and program responsibilities.
           Notwithstanding some exceptions, Federal law gives individuals the right to access
           information about themselves that is in SSA’s systems of records.

           Generally, individuals have access to records maintained by SSA that are retrievable by
           name, SSN or other personal identifier. 2 Some of the most frequently requested
           SSN-related records include the original Application for a Social Security Card
           (Form SS-5) and the Numident. The Numident is an electronic record of the
           information contained on an individual’s original application for an SSN and subsequent
           applications for replacement cards. Numident printouts are not issued by SSA field
           offices. To obtain a Numident printout, an individual must send a written request to
           SSA’s Central Office and pay a $16 fee.




           1
               Privacy Act of 1974, 5 U.S.C. § 552a and the Social Security Act, § 1106, 42 U.S.C. § 1306.
           2
               20 Code of Federal Regulations (C.F.R.) § 401.20 (a).
Page 2 - The Commissioner


The Numident contains a significant amount of the numberholder’s personally
identifiable information (for example, name, SSN, date of birth, place of birth, and
parents’ names). Because SSA was concerned about potential identity theft that could
occur if a Numident were obtained by someone with ill intent, in January 2002, SSA
began issuing SSN Printouts, which contain the numberholder’s name and SSN. See
Appendix B for a sample SSN Printout. Although not shown on the example, SSA field
offices are required to mark the printouts with a stamp indicating which office issued the
document. Additionally, personnel approving the request for an SSN Printout must sign
the form before providing it to the requestor.
SSA’s Program Operations Manual System (POMS) states, “The Numident and the
SSN Verification Printout are NOT official verifications of an SSN.” 3 Additionally, the
SSN Printout states
             YOUR SOCIAL SECURITY CARD IS THE OFFICIAL VERIFICATION
             OF YOUR SOCIAL SECURITY NUMBER. THIS PRINTOUT DOES
             NOT VERIFY YOUR RIGHT TO WORK IN THE UNITED STATES.
             PROTECT YOUR SOCIAL SECURITY NUMBER FROM FRAUD AND
             IDENTITY THEFT. BE CAREFUL WHO YOU SHARE YOUR NUMBER
             WITH.

Unlike the Social Security card, the SSN Printout contains no significant security
features other than the field office stamp and employee signature.
In Fiscal Year (FY) 2006, SSA offices issued about 6.3 million SSN Printouts. See
Appendix C for the distribution of SSN Printouts issued by SSA regions. The number of
SSN Printouts has significantly increased from FY 2003, the first full year SSA issued
them. In FY 2003, SSA issued about 4.6 million, by 2006 the number of SSN Printouts
increased by about 1.7 million or 37 percent. See Appendix D for more background
information.

To accomplish our objective, we reviewed pertinent sections of Federal laws,
regulations and SSA policies and procedures. We also obtained and analyzed a data
extract from SSA’s Audit Trail System (ATS), which contained some transaction data on
SSN Printouts issued in FY 2006. Further, we interviewed officials from 42 SSA field
offices (including the 25 that issued the most SSN Printouts in FY 2006), 4 district
offices and 4 regional offices to determine (1) their procedures for issuing SSN
Printouts and (2) whether they received any management information regarding the
SSN Printout workload. Additionally, of the 42 field offices, we visited 21 to observe
their procedures for processing SSN Printouts. In total, we observed SSA personnel
issuing 72 SSN Printouts. We also interviewed representatives from SSA components
involved in the development and implementation of SSN Printout regulations and
policies. These components included the Offices of Operations, Income and Security
Programs, Systems and General Counsel. See Appendix E for more information on our
scope and methodology.


3
    POMS RM 00202.320 B.3.
Page 3 - The Commissioner


RESULTS OF REVIEW
We believe the Agency’s controls for issuing SSN printouts should be strengthened.
Although the appearance of a Social Security card and an SSN Printout vary
significantly, the critical content of these documents is identical. That is, both
documents contain vital information about the numberholder—their name and SSN.
We acknowledge that the SSN Printout clearly states the only true proof of one’s SSN
is the Social Security card. However, our review found that the Printout is treated by
some third parties as an equal—or even superior—verification of an individual’s SSN.
In line with the treatment of these documents, we believe the issuance of SSN Printouts
should be afforded the same amount of control and care as the issuance of Social
Security cards.

This discrepancy exists in part because the Agency has attempted to comply with the
spirit of the Privacy Act and allow individuals access to information about themselves in
SSA records—without undue burden on the requestor. However, given the
(1) significant increase in requests for these documents in recent years, (2) the
increase in identity theft and (3) the Agency’s equally important mandate of protecting
numberholders’ personally identifiable information, we believe procedures for issuing
SSN Printouts should adhere to recently enhanced replacement Social Security card
issuance procedures.

For example, we believe the same identity documents presented to obtain a
replacement Social Security card should be required to obtain an SSN Printout.
Currently, SSA policy allows for the numberholder to provide less probative identity
documents (such as, credit cards) to obtain an SSN Printout. Additionally, unlike
recently implemented limits on the number of replacement Social Security cards an
individual can obtain in a year and lifetime, there are no such limits on SSN Printouts.
In fact, we determined that over 55,000 numberholders obtained 3 or more SSN
Printouts during FY 2006. Also, we believe systems’ capability to capture a request for
an SSN Printout similar to a Social Security card application would better ensure
procedures are followed and the requestor’s identity is established before releasing this
sensitive and personally identifiable information.

We also believe SSA should develop and disseminate more management information
regarding the SSN Printout workload. Currently, SSA managers have little information
to monitor the number of SSN Printouts issued and/or anomalies. For example, better
management information may enable responsible SSA personnel to address potential
problems such as the large number of printouts issued by certain field offices and
numberholders who obtained an excessive number of printouts during an
interview/day/year.

Finally, because the demand for SSN Printouts by third parties has increased, we
believe SSA must raise awareness among these entities regarding alternate and
perhaps more reliable and efficient methods for verifying that an SSN belongs to an
individual seeking their services or employment.
Page 4 - The Commissioner


PROCEDURES FOR ISSUING SSN PRINTOUTS SHOULD FOLLOW THE
IMPROVED REPLACEMENT CARD PROCEDURES

SSA’s procedures for issuing an SSN Printout allow numberholders to prove their
identity with documents that have limited probative value. In response to the
                                                                   4
Intelligence Reform and Terrorism Prevention Act of 2004 (IRTPA) and its own efforts
to better ensure SSN integrity, SSA revised its policies and procedures for issuing
replacement Social Security cards. In particular, SSA:

•     Increased the identity requirements for obtaining a replacement SSN card. In most
      situations, numberholders must now present certain valid photo identification
      documents of high probative value to prove their identity.

•     Limited the number of replacement Social Security cards an individual can receive
      to 3 in a year and 10 in a lifetime. 5

•     Required that field offices use the SS-5 Assistant to process most SSN applications.
      See Appendix F for a discussion of the SS-5 Assistant.

However, SSA did not implement similar procedures in the SSN Printout issuance
process.

Identity Requirements

Despite increasing identity requirements for an individual to obtain a replacement Social
Security card, SSA procedures for issuing SSN Printouts remain relatively unchanged.
According to SSA officials, the identity requirements for obtaining an SSN Printout are
less restrictive than those for obtaining an SSN card, but are consistent with SSA’s
                                                           6
disclosure regulations that implement the Privacy Act. Specifically, SSA’s policies and
procedures for issuing an SSN Printout allow individuals to prove their identity with a
“driver’s license, credit card, passport, or other identification a person might normally
        7
carry.” Also, in certain circumstances, individuals can obtain the SSN Printout from a
field office without any identity documents. In this situation, the individual is required to
answer identifying questions and sign a form SSA-795, Statement of Claimant or Other
Person. 8 Finally, numberholders can obtain an SSN Printout by calling SSA or sending
a written request. In either of these situations, photograph identification is not required.
Numberholders prove their identity by providing identifying information—not identity
documents. In contrast, SSA does not take replacement card applications over the
4
    Public Law 108-458, December 17, 2004.
5
    POMS RM 00202.239 A.
6
    20 C.F.R. § 401.40 (a).
7
    POMS GN 03340.015 B.
8
    POMS GN 03380.005 B.1.and GN 03340.015 B.
Page 5 - The Commissioner


phone. Although, SSA accepts replacement SSN card applications via the mail, the
numberholder must submit original identity documents that meet SSA requirements.
We believe the less restrictive identity requirements for SSN Printouts increase the
chance SSA will improperly provide an individual with documentation of personally
identifiable information they should not have.

During the course of our audit fieldwork, we observed SSA personnel issuing 72 SSN
Printouts at 21 field offices. Of these, SSA personnel issued 13 (18.1 percent)
Printouts based on identity documents that would not be acceptable to obtain a
replacement Social Security card. In fact, SSA personnel issued 6 (8.3 percent) of the
72 Printouts when the requestor had no identifying documentation. Instead, these
individuals answered a series of questions mandated by SSA policy, which are
designed to help establish the individual’s identity, and then signed form SSA-795 to
certify their identity. Given the personally identifiable information contained in these
documents, which we believe is equal to that of the Social Security card, we are
concerned that almost 20 percent were issued without substantive proof of the
requestor’s identity.

Multiple SSN Printouts Issued to Numberholders in a Day and Year

In December 2005, in compliance with IRTPA, SSA began limiting the number of
replacement Social Security cards a numberholder can obtain to 3 in a year and 10 in a
lifetime. As we reported in a September 2001 audit report, Replacement Social
Security Number Cards: Opportunities to Reduce the Risk of Improper Attainment and
Misuse, the ability to obtain multiple replacement Social Security cards could lead to the
sharing of these cards for improper purposes—such as, for employment by noncitizens
unauthorized to work in the United States.

We are equally concerned about the ability of numberholders to obtain multiple SSN
Printouts in a day, year and lifetime and believe that the ability to do so may negate the
limits on replacement cards. We recognize the Privacy Act requires that SSA give
access to information it holds in its systems of records to the numberholder. However,
we believe SSA should establish an acceptable number of SSN Printouts an individual
may obtain in a day, year or lifetime and require specific management approval for
requests exceeding that number. During our audit and after discussions with Agency
personnel regarding our data analysis, SSA revised its policy to state that generally
SSA personnel should not issue more than one SSN Printout to a requestor in the
same interview/same day. 9 However, the Agency has not incorporated any system
controls to preclude such occurrences.

Our analysis of the FY 2006 ATS data determined that some numberholders obtained
multiple SSN Printouts during the year, and others received multiple printouts in a day.
Table 1 provides details on numberholders who received three or more SSN Printouts
in FY 2006.

9
    POMS RM 00202.320 C.2.
Page 6 - The Commissioner


     Table 1: Numberholders Received Multiple SSN Printouts During FY 2006

                      SSN Printouts                 Numberholders
                        Received                  Day         Year
                      3                             7,269         45,214
                      4                             1,447          7,280
                      5                               527          1,747
                      6 to 9                          511          1,068
                      10 or more                       36             77
                                   Total            9,790         55,386

We asked SSA personnel in field offices, district and regional offices and other
knowledgeable components if they could provide any explanations why someone would
need multiple SSN Printouts in a day or as many as 10 in a year. Most commonly, they
speculated that numberholders may have requested copies for multiple third parties or
computer printing problems occurred (that is, the printer did not actually print copies of
the documents, but the system registered a count each time the user tried).
Additionally, some pointed out that our audit period included the period following
Hurricane Katrina, during which SSN Printouts were provided to numberholders so they
could replace other identity documents (such as, a driver’s license).

SSA examined the 77 occurrences in which numberholders were issued 10 or more
SSN Printouts during FY 2006. SSA determined that the SSN Printouts were not
improperly issued. Specifically, the Agency found that many of the numberholders had
unusual circumstances that required multiple SSN Printouts, and, in other cases, the
multiple SSNs Printouts were associated with staff training. Although the SSN Printouts
were not involved in any improper action, we believe proactive integrity reviews of
instances in which the number and frequency of SSN Printouts appear unusual would
further improve controls.

SSN Printout Issuance Process

Currently, SSA personnel issue SSN printouts through a print query of the Numident
file. No record of the applicant’s identity document(s) is established. For replacement
Social Security cards, field office staff is required to process applications through the
SS-5 Assistant. 10 (See Appendix F for additional information on the SS-5 Assistant.)
To complete the application, field office staff must record in the SS-5 Assistant the type
of identity document presented, the document’s identification number and other
pertinent information. We believe SSA should implement a similar system to process
and record requests for SSN Printouts. Such a system will better ensure that SSA


10
  The SS-5 Assistant, a Microsoft Access-based application, guides field office personnel in processing
SSN applications by providing structured interview questions and requiring certain data to complete the
application process. Overall, the SS-5 Assistant is intended to increase control over the SSN application
process, improve the quality of data used to assign an SSN and enable management to better control this
workload.
Page 7 - The Commissioner


personnel follow required procedures and establish the requestor’s identity before
releasing this sensitive and personally identifiable information.

We recognize SSA does not issue as many SSN Printouts in a year as it does
replacement cards. Nevertheless, we believe the number of SSN Printouts issued is
significant. Since 2004, the number of SSN Printouts issued has averaged close to
6 million per year, while the number of replacement cards averaged about 12 million per
year. Table 2 details the number of SSN Printouts and replacement cards issued since
2004.

                   Table 2: Replacement Cards and SSN Printouts
                                 Issued Since 2004

                                  Number of          Number of SSN
                   Fiscal
                                 Replacement          Verification
                    Year
                                  SSN Cards            Printouts
                    2004          12,364,771           5,304,052
                    2005          12,078,921           5,621,500
                    2006          11,575,697           6,336,750

SSN Printouts are often issued in conjunction with a replacement card application. In
processing a replacement Social Security card application, SSA personnel must view
and record data from established identify documents. Accordingly, in these instances,
SSA has the information recorded in SS-5 Assistant for the replacement card
application, which would apply to the request for an SSN Printout. However, the SS-5
Assistant does not currently have the functionality to document the same information
when only an SSN Printout is requested. Additionally, the SS-5 Assistant does not
capture when an SSN Printout is issued as part of a replacement card application.

MANAGEMENT INFORMATION IS NEEDED TO BETTER MONITOR THE SSN
PRINTOUT WORKLOAD

SSA does not have procedures in place to share relevant SSN Printout management
information with responsible personnel. As a result, managers at the field, district, and
regional offices did not have necessary data to address any potential problems with this
workload—such as, excessive issuance of these documents by a particular field office
or to a specific numberholder. SSA’s systems did capture some data on the SSN
Printout workload through ATS. However, this information was limited to the following
elements for each request:

•   SSN,
•   date issued,
•   office code where originated, and
•   employee number of the SSA staff that initiated the action.
Page 8 - The Commissioner


SSA did not compile or disseminate these data to responsible Agency managers. As a
result, responsible personnel could not analyze trends or anomalies in the SSN Printout
workload. For example, the managers we spoke with were not aware that, during
FY 2006, almost 10,000 numberholders obtained more than 3 SSN Printouts in a single
day, and over 55,000 obtained more than 3 SSN Printouts throughout the year. Had
this information been available earlier, the Agency could have performed a more timely
investigation of any egregious cases.

We also found that certain field offices issued a high volume of SSN printouts. Analysis
of the ATS data disclosed that 25 (1.8 percent) of SSA’s 1338 field offices issued about
700,000 (11 percent) of the 6.3 million SSN Printouts in FY 2006. We believe office
size and visitor traffic were not the only factors that explain why these offices issued a
high number of SSN printouts. For example, some managers we spoke with
acknowledged that personnel in their field offices generally asked every applicant for a
replacement Social Security card whether they needed immediate proof of their
SSN—via an SSN Printout. This practice did not comply with SSA policies and
procedures. A comparison of the number of SSN Printouts issued to the number of
replacement Social Security cards issued for the top 25 field offices disclosed that

•   11 offices processed more SSN Printout requests than replacement Social Security
    card applications, and

•   7 offices processed about the same number of SSN Printout requests as
    replacement Social Security card applications.

See Appendix G for detailed information on the 25 field offices that issued the most
SSN Printouts in FY 2006.

We believe reliable management information for SSN printouts would help SSA ensure
the proper issuance of these documents. Almost all of the SSA managers interviewed,
responded that some SSN Printout information for their offices would be helpful.
Additionally, most managers indicated that timely information about unusual situations
such as an excessive number of SSN Printouts issued to one individual in a day or year
would enable them to be more proactive in preventing potential SSN misuse.

DEMAND FOR THE SSN PRINTOUT HAS INCREASED

For the 4-year period October 2002 through September 2006, the number of SSN
Printouts increased in each consecutive FY. From FY 2003 to FY 2006, the number of
SSN Printouts issued increased by 37.2 percent. Table 3 details the number of SSN
Printouts issued in the last 4 FYs.
Page 9 - The Commissioner


                      TABLE 3: 4-Year History of SSN Printouts

                             SSN                            Percentage
             Fiscal                      Increase from
                         Verification                      Increase from
              Year                       previous year
                          Printouts                        Previous Year
              2003        4,618,180            --                 --
              2004        5,304,052         685,872             14.9
              2005        5,621,500         317,448              6.0
              2006        6,336,750         715,250             12.7

Many of the management officials interviewed explained that the high volume of SSN
Printouts issued, and the growth in these numbers has been driven by third parties who
want the document to verify an individual’s SSN. Our observations seem to confirm this
belief. We observed the issuance of 72 SSN Printouts and learned that the
numberholders requested the document for various reasons, as detailed in Table 4.

              TABLE 4: Reasons Why SSN Printouts Were Requested

                                                              SSN
          Reason For SSN Printout Requests                                Percent
                                                            Printouts
 Employer                                                      24           33.3
 State Department of Motor Vehicles                            16           22.2
 State Social Service Agencies                                 12           16.7
 Other Third Parties (such as tax preparers)                   15           20.8
 Personal Use                                                   5            7.0
                                                   Total       72           100

As confirmed by our observations, field office managers with whom we spoke stated
that employers and State Departments of Motor Vehicles (DMV) are the third parties
that most frequently ask numberholders to obtain SSN Printouts. DMVs and employers
know the SSN Printout provides a fast and reliable method for verifying an SSN and
requires little effort on their part. In some cases, it appears these entities prefer the
SSN Printout over SSN verification services offered by SSA. In fact, most State DMVs
already use the Social Security On-Line Verification (SSOLV) service, which compares
an individual’s name and SSN with SSA data—and provides real-time feedback.
Table 5 details some of the SSN verification services SSA provides to employers,
DMVs and, in some instances, State agencies.
Page 10 - The Commissioner


                   Table 5: Some of SSA’s SSN Verification Services

        Service                Users                      Method of Verification
                             Employers         Telephone, fax, written request via mail, or
       Employee
                             and State         magnetic tape. Employer must register with
      Verification
                               Benefit         SSA when requests exceed 50 SSNs or
        Service                                magnetic tape is used.
                              Agencies
     Social Security                           On-line verification only. Employer must
        Number                                 register with SSA to obtain an activation
                             Employers         code, personal identification number and
      Verification
        Service                                password
                                               On-line verification. Employer must register
                                               for program with the Department of
                                               Homeland Security. E-Verify also provides
        E-Verify             Employers
                                               information to the employer regarding the
                                               employee’s work authorization status in the
                                               United States.
                                               On-line only. Users enter SSNs to be
        SSOLV               State DMVs
                                               verified on SSA website.

Although SSA’s overall position is that the Social Security card is the only official paper
verification of the SSN, in practicality the SSN Printout is used for just this purpose. In
fact, SSA policies and procedures state that the SSN Printout can be used for SSN
verification purposes. 11 Further, the document includes the language “Social Security
Number Verification” and “Our Records Indicate that the Social Security Number
(000-00-000) is Assigned to (numberholder name).” Accordingly, there appears to be
contradictory policy regarding the purposes and value of the SSN Printout in SSA’s own
guidelines. Until such time as SSA clarifies its policies and, perhaps revises the
language on the SSN Printout, we believe third parties will continue to rely on this
document as official verification of an individual’s SSN.

Additionally, to address the increased demand for these documents by third parties, we
believe SSA should undertake an aggressive outreach program that informs employers
of the ease and usefulness of SSN verification services. This outreach should extend
to State DMVs, which should be encouraged to verify SSNs through SSA’s on-line
services rather than the SSN Printout.




11
  POMS GN 03325.025 B.1. “Use the SSN Verification Printout, available through the Numident Query
screen for all requests for SSN verification.”
Page 11 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Because the SSN Printout contains sensitive personally identifiable information about
numberholders and could be misused, we believe SSA’s policies and procedures for
the issuance of these documents should be strengthened. Specifically, SSA should
require that individuals who request SSN Printouts provide the same identity documents
required for replacement Social Security card applications. Further, SSA should
establish an acceptable number of SSN Printouts an individual may obtain in a day,
year or lifetime and require management approval for requests exceeding that number.

We also believe SSA should consider developing a system similar to the SS-5 Assistant
(or its successor) to provide an application process for SSN Printouts so (1) a record of
the applicant’s identity document(s) is recorded and maintained and (2) SSA can be
assured that personnel follow all policy requirements for issuing the printout. We also
believe SSA should provide better management information to those responsible for
this workload. Finally, given the increased demand for SSN Printouts by third parties,
we believe SSA should undertake an extensive outreach program to better inform these
entities of the ease and usefulness of already established SSN verification services.

We recommend SSA:

1. Revise the applicable Federal regulation and SSA policies governing individuals’
   right to access their personal information maintained in the Agency’s system of
   records. Specifically, we believe these individuals should be required to present the
   same type of identity documents as replacement Social Security card applicants.

2. Establish an acceptable number of SSN Printouts an individual may obtain in a day,
   year or lifetime, and require specific management approval for requests exceeding
   that number.

3. Establish procedures to perform routine integrity reviews of anomalies involving the
   issuance of SSN Printouts. Any cases involving potential SSN misuse should be
   referred to the Office of the Inspector General.

4. Consider developing a system or application similar to the SS-5 Assistant to
   document and track actions taken to issue an SSN Printout.

5. Develop and disseminate management information for the SSN Printout workload to
   responsible SSA personnel. At a minimum, the information should enable
   managers to identify anomalies in the number of SSN Printouts issued by field
   offices and to numberholders.

6. Clarify SSA policies and the SSN Printout language to consistently communicate the
   Agency’s official position as to whether the document is valid for SSN verification
   purposes.
Page 12 - The Commissioner


7. Extend outreach to employers, DMVs and other third parties in areas where the
   demand for SSN Printouts is high to raise the awareness that SSA offers verification
   services.

8. Issue a reminder to field office staff that SSN Printouts should only be issued when
   the numberholder expresses an immediate need for a verification of the SSN.

AGENCY COMMENTS

SSA agreed with Recommendations 4, 6 and 7, and partially agreed with
Recommendations 1, 2, 3 and 5. SSA disagreed with Recommendation 8. A summary
of the Agency’s responses for Recommendations 1, 2, 3, 5 and 8 follows. See
Appendix H for the full text of SSA’s comments.

Regarding Recommendation 1, which suggested that individuals requesting SSN
printouts should be required to present the same type of identity documents as those
applying for replacement Social Security cards and that the Federal Regulation should
be revised to reflect these revised requirements. In its response, SSA states that its
current policies for verifying identity are sufficient and provide individuals access to their
records as required by the Privacy Act guidelines. However, the Agency acknowledged
the risk of identity theft associated with disclosing the SSN. Accordingly, SSA stated it
will evaluate the effectiveness of improved controls planned for FY 2008 and assess
current regulatory requirements to determine whether any regulatory changes are
needed to increase identity requirements for issuing SSN Printouts.

SSA partially agreed with Recommendation 2, in which we suggested the Agency
should establish an acceptable number of SSN Printouts an individual may obtain in a
day, year or lifetime and require specific management approval for requests exceeding
those numbers. The Agency cited the Privacy Act—stating that the Act establishes an
individual’s right of access to records maintained by Federal agencies without limiting
the number of times those records can be requested. However, in its response, SSA
acknowledged the need to balance the responsibility for protecting SSNs with the
obligation of providing individuals access to personal information. Accordingly, SSA
agreed to assess how limiting the number of SSN Printouts individuals can obtain
impacts their Privacy Act rights.

SSA partially agreed with Recommendation 3, which suggested that it perform routine
integrity reviews of anomalies involving the issuance of SSN printouts. SSA stated that
this action will be completed through the new Web-based Comprehensive Integrity
Review Process (CIRP), which is scheduled for implementation in FY 2008. As such,
the Agency will not establish special procedures to review SSN Printout anomalies.

SSA partially agreed with Recommendation 5, in which we suggested the Agency
develop and disseminate information for the SSN Printout workload to responsible SSA
personnel. Again, the Agency stated that the new version of CIRP will make certain
Page 13 - The Commissioner


SSN Printout information available to managers. However, the Agency stated that it did
not believe multiple printouts alone are indicators of possible fraud, abuse or misuse.

Finally, the Agency disagreed with Recommendation 8 in which we suggested SSA
issue a reminder to field office staff that SSN Printouts should only be issued when the
numberholder expresses an immediate need for a verification of the SSN. SSA stated
that current policy does not dictate that the numberholder express an “immediate need”
for this information. Once again, the Agency cited Privacy Act provisions, which protect
an individual’s right to access his or her record. Additionally, the Agency stated the
Office of Management and Budget’s (OMB) Privacy Act guidelines indicate that the
granting of access may not be conditioned upon any requirement to state a reason or
otherwise justify the need to gain access to a particular record.

OIG RESPONSE
While we agree with and respect individuals’ rights to access records Federal agencies
maintain about them, we believe SSA and other Federal agencies have an equally
paramount responsibility to protect the information they house on individuals. In fact,
OMB recently issued a memorandum to the heads of Federal departments and
agencies on how to best safeguard personally identifiable information. In general, the
memorandum requires Federal agencies to implement additional controls to safeguard
this data. We understand the Privacy Act guidelines are designed to ensure individuals
are not unduly burdened when seeking information about themselves from Federal
agencies—and it is not our intent to place unreasonable restrictions on this process.
However, we believe SSA should consider the need for legally permissible revisions in
its implementation of the Privacy Act and other governing guidance in light of the
unprecedented growth in identity-related crimes and the obligation of Federal agencies
to protect personally identifiable information, such as information contained on SSN
Printouts.

As the issuer and keeper of hundreds of millions of SSNs and related records, we
believe SSA should be the standard-bearer in establishing controls that protect this
information. Currently, we do not believe the Agency’s controls over SSN Printout
issuance provide sufficient protection of this personal information. Specifically, we are
concerned that SSA’s procedures do not always ensure the person obtaining the SSN
Printout is the numberholder. In its response to our recommendations, SSA indicated it
will further evaluate the need to strengthen controls over the SSN Printout workload and
determine whether changes to privacy related regulations are needed.

We are encouraged SSA is working to improve the integrity of the SSN. However, SSA
only partially agreed with four of our recommendations and disagreed with one. Our
concerns with SSA’s response to these five recommendations are discussed below.

Regarding Recommendation 1, we are pleased that SSA plans to evaluate possible
regulatory changes to strengthen the identity requirements for SSN Printouts. In FY
2006, SSA issued over 6 million SSN Printouts, which contained the same personally
Page 14 - The Commissioner


identifiable information as Social Security cards. The OIG certainly understands and
fully respects the importance of the Privacy Act. However, given the number of SSN
Printouts issued in FY 2006 and the risk associated with disclosing an SSN, we do not
believe it is unduly burdensome to require that an individual provide the same type of
identity documents to obtain an SSN printout as is required for a replacement Social
Security card.

As to Recommendation 2, we are encouraged that SSA is going to consider how
limiting the number of SSN printouts an individual can obtain impacts their right to
information under the Privacy Act. We acknowledge that the Agency found no fraud or
abuse in the cases it reviewed in which individuals obtained 10 or more SSN Printouts
in FY 2006. However, the absence of fraud should not dissuade the Agency from
addressing known vulnerabilities. We believe the potential an individual could
improperly obtain an SSN Printout and use it to assume the true numberholder’s
identity should be sufficient incentive for the Agency to implement our
recommendation—especially given that it issues millions of these documents every
year.

Regarding Recommendations 3 and 5, we are pleased that CIRP will provide additional
information to managers regarding the SSN Printout workload. However, we
understand that this information will be limited. That is, CIRP will identify SSN Printouts
issued, but regional or field office managers will have to download the information and
perform their own analyses to identify trends such as an individual obtaining multiple
Printouts in a given time period—especially, if they obtain these printouts at various
field offices. Additionally, we understand that no aggregate figures will be provided to
field office or regional managers showing the total number of SSN Printouts issued by
their office(s) each month (or year). Rather, the managers will have to ascertain (or
calculate) these figures from the CIRP reports. We believe such information would
assist managers in identifying trends such as offices issuing an exceptionally high
number of Printouts. Accordingly, we encourage SSA to consider developing and
disseminating additional management information, which the managers do not have to
analyze and calculate themselves.

Finally, with regard to Recommendation 8, we acknowledge that SSA policy does not
specifically require that the individual who requests an SSN Printout cite an “immediate
need” for SSN verification before the document is provided. Nevertheless, the policy
does state that SSN Printouts should only be provided when expressly requested by the
numberholder. Additionally, the policy requires that SSA personnel explain that the
Social Security card is the official verification of an individual's SSN and encourage
Page 15 - The Commissioner


requestors to apply for a replacement Social Security card, if necessary. Our intent was
for SSA to remind field office personnel that they should not offer every applicant for a
replacement Social Security card an SSN Printout nor should they provide the SSN
Printout as a form of receipt after an SSN application is processed. Based on the large
volume of SSN Printouts issued by some offices, we believe some form of reminder or
training is warranted to reiterate the circumstances under which these documents
should be offered and provided.




                                               Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Example of a Social Security Number Verification Printout
APPENDIX C – Social Security Number Verification Printouts by Region
APPENDIX D – Background
APPENDIX E – Scope and Methodology
APPENDIX F – The SS-5 Assistant
APPENDIX G – Twenty-five Field Offices That Issued the Most Social Security Number
             Verification Printouts
APPENDIX H – Agency Comments
APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
ATS            Audit Trail System
C.F.R.         Code of Federal Regulations
CIRP           Comprehensive Integrity Review Process
DMV            Department of Motor Vehicles
EEVS           Employment Eligibility Verification System
EVS            Employee Verification Service
FY             Fiscal Year
IRTPA          Intelligence Reform and Terrorism Prevention Act of 2004
OMB            Office of Management and Budget
POMS           Program Operations Manual System
SSA            Social Security Administration
SSN            Social Security Number
SSN Printout   SSN Verification Printout
SSNAP          Social Security Number Application Process
SSOLV          Social Security On-Line Verification


Forms
SS-5           Application for a Social Security Card
SSA-795        Statement of Claimant or Other Person
                                                           Appendix B

Example of a Social Security Number
Verification Printout
NUMI   DTE: 01/10/07   SSN: 000-00-0000 XC:   UNIT: OIG   PG: 001


                SOCIAL SECURITY ADMINISTRATION
             SOCIAL SECURITY NUMBER VERIFICATION

OUR RECORDS INDICATE THAT SOCIAL SECURITY NUMBER 000-00-0000 IS
ASSIGNED TO JOHN, DOE, JR.

YOUR SOCIAL SECURITY CARD IS THE OFFICIAL VERIFICATION OF YOUR
SOCIAL SECURITY NUMBER. THIS PRINTOUT DOES NOT VERIFY YOUR RIGHT
TO WORK IN THE UNITED STATES. PROTECT YOUR SOCIAL SECURITY
NUMBER FROM FRAUD AND IDENTITY THEFT. BE CAREFUL WHO YOU SHARE
YOUR NUMBER WITH.
                                                               Appendix C

Social Security Number Verification Printouts by Region
                            SSN                                      SSN
Region      State         Printouts
                                      Region         State         Printouts
         Massachusetts       73,084             Texas                 735,684
         Connecticut         17,690             Louisiana             189,933
         Rhode Island        17,353             Arkansas               68,500
  1      New Hampshire       10,915     6       Oklahoma               49,371
         Maine                8,615             New Mexico             45,395
         Vermont              5,884                       Total     1,088,883
         Total              133,541
         New York           186,539             Missouri             191,212
         New Jersey         115,890             Kansas                49,484
  2      Puerto Rico         55,144     7       Iowa                   9,578
         Virgin Islands       1,973             Nebraska               7,574
         Total              359,546                        Total     257,848
         Pennsylvania       196,976             Colorado              68,436
         Virginia            96,894             Utah                  27,180
         Maryland            53,675             Montana               11,984
         District of
  3      Columbia
                             43,574     8       South Dakota            5,337
         Delaware            19,165             North Dakota            4,878
         West Virginia       19,093             Wyoming                 4,790
         Total              429,377                        Total      122,605
         Florida            441,299             California            655,336
         Georgia            249,903             Arizona               105,737
         North Carolina     211,811             Nevada                 84,400
         Alabama            164,393             Hawaii                 17,565
         Tennessee          148,249
                                         9      American Soma           4,230
  4
         South Carolina     126,858             Guam                    3,070
         Mississippi        123,112             Saipan                    873
         Kentucky           106,758                        Total      871,211
         Total            1,572,383             Washington             77,577
         Ohio               520,398             Oregon                 29,433
         Illinois           329,399     10      Alaska                 13,112
         Indiana            200,642             Idaho                   9,869
  5      Michigan           189,588                        Total      129,991
         Wisconsin           94,683            Total of Regions     6,328,824
         Minnesota           28,729     Other SSA Components            7,926
         Total            1,363,439        Total SSN Printouts      6,336,750
                                                                                     Appendix D

Background
In compliance with both the Privacy Act of 1974 and the Social Security Act, 1 the Social
Security Administration’s (SSA) information disclosure policy dictates that it will protect
the privacy of individuals to the fullest extent possible, while also permitting the
exchange of information needed to fulfill its administrative and program responsibilities.
Notwithstanding some exceptions, Federal law gives individuals the right to access
information about themselves that are in SSA’s systems of records.

Generally, individuals have access to records maintained by a Federal agency that are
retrievable by name, Social Security number (SSN), or other personal identifier. 2 Some
of the most frequently requested SSN-related records include the original Application
for a Social Security Card (Form SS-5) and the Numident. The Numident is an
electronic record of the information contained on an individual’s original application for
an SSN and subsequent applications for replacement cards. To obtain a Numident, an
individual must send a written request to SSA’s Central Office and pay a $16 fee.
WHAT IS AN SSN VERIFICATION PRINTOUT?
Numidents contain a significant amount of personally identifiable information about the
numberholder (for example, name, SSN, date of birth, place of birth, and parents’
names). Because SSA was concerned with potential identity theft that could occur if a
Numident were obtained by someone with ill intent, in January 2002, SSA began
issuing the SSN Printout, which contains the numberholder’s name and SSN. See
Appendix B for a sample SSN Printout. Although not shown on the example, SSA field
offices are required to mark the printouts with a stamp indicating which office issued the
document. Additionally, personnel approving the request for an SSN Printout must sign
the form before providing it to the requestor.

SSA’s Program Operations Manual System (POMS) states, “The Numident and the
SSN Verification Printout are NOT official verifications of an SSN.” 3 Additionally, the
SSN printout states,
               YOUR SOCIAL SECURITY CARD IS THE OFFICIAL VERIFICATION
               OF YOUR SOCIAL SECURITY NUMBER. THIS PRINTOUT DOES
               NOT VERIFY YOUR RIGHT TO WORK IN THE UNITED STATES.
               PROTECT YOUR SOCIAL SECURITY NUMBER FROM FRAUD AND
               IDENTITY THEFT. BE CAREFUL WHO YOU SHARE YOUR NUMBER
               WITH.


1
    Privacy Act of 1974, 5 U.S.C. § 552a and the Social Security Act, § 1106, 42 U.S.C. § 1306.
2
    20 Code of Federal Regulations (C.F.R.) § 401.20 (a).
3
    POMS RM 00202.320 B.3.


                                                     D-1
Unlike the Social Security card, the SSN Printout contains no significant security
features other than the field office stamp and employee signature.

In Fiscal Year (FY) 2006, SSA offices issued about 6.3 million SSN Printouts. See
Appendix C for the distribution of SSN Printouts issued by SSA Regions. The number
of SSN Printouts has significantly increased from FY 2003, the first full year when SSA
issued them. In FY 2003, SSA issued about 4.6 million, by 2006 the number of SSN
Printouts increased by about 1.7 million or 37 percent.

WHY DO INDIVIDUALS REQUEST SSN PRINTOUTS?

SSN numberholders and third parties request SSN Printouts for a number of reasons—
and, as more entities and numberholders become aware of these documents, the
demand for them appears to increase. The following are among the reasons we
learned SSN Printouts are issued.

•   Applicants for replacement Social Security cards do not want to wait the
    approximate 10 days required to receive the new card in the mail. Rather, they
    request proof of their SSNs immediately—often to provide it to a third party.

•   Some third parties, such as State Departments of Motor Vehicles (DMV), employers,
    tax preparers, and benefit agencies, require proof of an individual’s SSN before
    providing the applicable service or employment. We learned that some of these
    entities know SSA field offices will issue the SSN Printouts immediately and
    encourage numberholders to obtain them. Despite the existence of other SSN
    verification services (for example, SSA’s Employee Verification Service for
    Registered Employers, the SSN Verification Service and the Social Security On-Line
    Verification program provided to DMVs), we learned that some third parties prefer
    the stamped SSN Printout for verification of a numberholder’s SSN.

•   Based on our audit, it appears that some numberholder’s do not request SSN
    Printouts but are offered them by field offices. Some SSA offices routinely ask most
    replacement Social Security card applicants whether they would like an SSN
    Printout and, when prompted, many of the numberholders respond affirmatively.
    While this practice seems to be the exception rather than the norm, it does provide
    some perspective regarding the disparity between the large number of SSN
    Printouts some SSA field offices issue versus the much smaller number that the
    majority of the SSA offices issue.




                                           D-2
HOW DO NUMBERHOLDERS OBTAIN AN SSN PRINTOUT?

Numberholders may obtain SSN Printouts by (1) visiting their local SSA field office,
(2) mailing a written request or (3) calling SSA. In each situation, the numberholder
must prove his/her identity. Table 1 details SSA’s policy regarding how a numberholder
must prove his/her identity when requesting an SSN printout. 4

                     TABLE 1: How Numberholders Prove Their Identity

    SSN Printout is Requested at a Field Office
    Numberholder should provide a driver’s license, credit card, passport, or another
    identification document that a person might normally carry.

    If the numberholder has no identification, the individual should sign a statement that
    certifies their identity.

    SSN Printout is Requested by Mail
    Numberholder should send a written request that provides his/her name, address and
    SSN; along with a notarized statement of identity.

    SSN Printout is Requested by Telephone
    Numberholder should provide his/her name, SSN, address, date of birth, place of birth,
    and at least one other item of information available in SSA’s records.

Before issuing an SSN Printout, field office staff is required to explain to the
numberholder that the Social Security card, not the SSN Printout, is the only official
verification of the SSN. 5 In addition, if field office staff knows the applicant’s SSN card
was lost, staff should encourage the numberholder to complete a replacement card
application. However, if the numberholder wants only the SSN Printout, the office must
issue it, provided the individual’s identity can be established. 6 To issue the printout,
SSA employees need only query SSA’s Numident file with the applicant’s SSN, and
select “Yes” at the system prompt asking whether an SSN Printout is desired.




4
    POMS GN.03340.015 B.1 through B.3.
5
    POMS RM 00202.320 E.1.
6
    Id.


                                                  D-3
                                                                       Appendix E

Scope and Methodology
To accomplish our objective, we performed the following steps.

•   Reviewed pertinent sections of Federal laws, regulations and the Social Security
    Administration’s (SSA) policies and procedures.

•   Reviewed Office of the Inspector General reports and other relevant documents.

•   Obtained a data extract from SSA’s Audit Trail System (ATS) that contained
    detailed information on all SSN Verification Printouts (SSN Printouts) issued in
    Fiscal Year (FY) 2006.

•   Analyzed the ATS data to determine the
     total SSN Printouts issued,
     total numberholders who received an SSN Printout,
     distribution of SSN Printouts by SSA field office and region,
     25 field offices that issued the most SSN Printouts, and
     total SSN Printouts received by SSN – in a day and year.

•   Interviewed officials from 42 SSA field offices (including the 25 that issued the most
    SSN Printouts in FY 2006), 4 district offices and 4 regional offices to determine
    (1) their procedures for issuing SSN Printouts and (2) whether they received any
    management information regarding the SSN Printout workload.

•   Visited 21 of the 42 field offices we interviewed to observe their procedures for
    processing SSN Printouts. In total, we observed SSA personnel issuing 72 SSN
    Printouts. The SSN Printouts observed were not randomly selected.

•   Interviewed representatives from SSA components involved in the development
    and implementation of SSN Printout regulations and policies. These components
    included the Offices of Operations, Income and Security Programs, Systems and
    General Counsel.

Our review of internal controls was limited to obtaining an understanding of SSA’s
procedures and controls for issuing SSN Printouts. For our analysis, we generally
relied upon data from SSA’s ATS. We determined that this data was sufficiently
reliable to satisfy our audit objectives. The SSA entities audited were the Offices of
Operations, Income and Security Programs, and General Counsel. We conducted the


                                           E-1
audit between November 2006 through May 2007 in Atlanta, Georgia, and Baltimore
Maryland. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         E-2
                                                                 Appendix F

The SS-5 Assistant
In March 2005, the Social Security Administration (SSA) began requiring that its field
offices use the SS-5 Assistant to process most Social Security number (SSN)
applications. The purpose of the SS-5 Assistant was to increase the controls over the
SSN application process and improve the quality of data used to assign SSNs. The
SS-5 Assistant, a Microsoft Access-based application, guides field office personnel in
processing SSN applications by providing structured interview questions and requiring
certain identity data to complete the application process.

When field office staff process a replacement card application through the
SS-5 Assistant, a record of the applicant’s identity document(s) is established. For
example, field office staff record in the SS-5 Assistant the type of document presented
(for example, a driver’s license), the document’s identification number, and other
pertinent information. Also, when the application is cleared for processing, the
SS-5 Assistant updates the Modernized Enumeration System (MES) to reflect the SSN
card action. In contrast, when field office staff completes a Social Security Number
Verification Printout (SSN Printout) action, only a print function within the Numident
query is executed. As a result, no record of the identity documents is established and
no record is established on the Numident that a printout was issued.

At the time of our audit, field offices processed most replacement card applications
through the SS-5 assistant. However, no path was available within the SS-5 assistant
to document whether an SSN Printout was issued in conjunction with a successful
replacement card application. If such a path was available, field office personnel’s
response to a query could also be structured to print an SSN Printout when requested
by the numberholder. Because a majority (about 73 percent) of the SSN Printouts are
issued in conjunction with replacement card applications, this modified path within the
SS-5 Assistant would increase the controls over most SSN Printouts.

The SS-5 Assistant would have to be further modified to account for situations where
individuals obtain an SSN Printout absent a replacement card application. The
SS-5 Assistant would need a path for tracking the identity document(s) presented by
the numberholder.

SSA is in the Planning and Analysis phase of developing the Social Security Number
Application Process (SSNAP), an automated SSN assignment system that will replace
the SS-5 Assistant and MES. The Agency is determining the user requirements for
SSNAP and plans to implement this system within the next 2 years. Accordingly, any
recommendations we make in this report will address considerations we believe should
be given to the new system design.
                                                              Appendix G

Twenty-five Field Offices That Issued the Most
Social Security Number Verification Printouts
                                   Social Security                  Percent of
                  Field               Number         Replacement   Printouts to
                 Office              Printouts          Cards      Replacement
               Location                Issued          Issued         Cards
1    Las Vegas, Nevada                 55,475          74,840          74.1
2    Dallas (North), Texas             41,396          41,061         100.8
3    San Antonio, Texas                38,308          29,261         130.9
4    Houston (Southwest), Texas        35,707          41,282          86.5
5    Cincinnati (Downtown), Ohio       35,133          21,954         160.0
6    Grand Prairie, Texas              31,546          32,670          96.6
7    Columbus, Ohio                    30,427          19,562         155.5
8    Houston (Southeast), Texas        29,761          26,799         111.1
9    Brooklyn, New York                26,404          78,973          33.4
10   Dallas (Fair Park), Texas         25,967          19,151         135.6
11   Fort Worth, Texas                 25,407          30,582          83.1
12   Pasadena, Texas                   25,373          27,420          92.5
13   Reno, Texas                       25,241          27,641          91.3
14   El Paso, Texas                    24,855          23,762         104.6
15   Mesa, Arizona                     23,781          37,730          63.0
16   Balch Spring, Texas               22,467          21,651         103.8
17   Houston (Northeast), Texas        22,360          26,910          83.1
18   Nashville, Tennessee              22,278          23,869          93.3
19   Birmingham, Alabama               22,062          23,638          93.3
20   Terrytown, Louisiana              21,886          19,974         109.6
21   Albuquerque, New Mexico           21,847          37,800          57.8
22   Baton Rouge, Louisiana            21,376          23,538          90.8
23   Cincinnati (North), Ohio          21,375          19,983         107.0
24   Jackson, Mississippi              21,312          23,631          90.2
25   Melbourne, Florida                21,254          20,579         103.3
                  Appendix H

Agency Comments
                                           SOCIAL SECURITY
MEMORANDUM

Date:      October 25, 2007                                                          Refer To:   S1J-3

To:        James A. Kissko
           Deputy Inspector General

From:      David V. Foster      /s/ (David Rust for David Foster)
           Chief of Staff

Subject:   Revised Comments on the Office of the Inspector General (OIG) Draft Report, "Controls for
           Issuing Social Security Number Verification Printouts" (A-04-07-27112)--INFORMATION

           Thank you for the opportunity to review and revise our comments on the draft report. As noted
           in our initial comments, we agree that it is important to protect the integrity of the Social Security
           number (SSN) and the enumeration process while at the same time ensuring that people have
           appropriate access to information that would be necessary to gain employment and other services
           where the SSN is deemed essential.

           For recommendations 1 and 2, we have considered your concerns and revised our response from
           disagree to partially agree. We continue to believe that what OIG is recommending is
           inconsistent with applicable Privacy Act and Personally Identifiable Information disclosure
           policies. However, we acknowledge the threat of identity theft, and agree to evaluate the
           effectiveness of improved controls to be implemented and will evaluate the current regulatory
           requirements to determine what additional regulatory or non-regulatory measures may be used to
           make disclosure of SSN printouts less vulnerable while ensuring that individuals’ Privacy Act
           rights are not violated.

           For recommendation 4, we revised the response to agree that it is important to track actions taken
           to issue an SSN Printout. We reaffirm our initial comments that stated: 1) we currently have
           systems in place to obtain that data through the Audit Trail System; 2) by late fiscal year 2008
           these actions will be captured through the Web based CIRP which will track both Numidents and
           NUMI Lites (SSN Printouts); and 3) the Integrity Review Handbook contains instructions on the
           review and certification of potential fraud or abuse cases. Our POMS GN 04100 contains
           additional procedures for referral of cases to OIG.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           (410) 965-4636.

           Attachment:
           Revised SSA Comments


                                                            H-1
REVISED COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT REPORT, "CONTROLS FOR ISSUING SOCIAL SECURITY NUMBER
VERIFICATION PRINTOUTS" (A-04-07-27112)

Thank you for the opportunity to review and comment on the draft report. We agree that it is
important to protect the integrity of the Social Security number (SSN) and the enumeration
process while at the same time ensuring that people have appropriate access to information that
would be necessary to gain employment and other services where the SSN is deemed essential.
We also agree that there should be controls in place to ensure that the SSN Verification Printouts
(SSN Printout) are not misused. However, any such procedures must comply with SSA’s, the
Office of Management and Budget’s (OMB) and other applicable Privacy Act and disclosure
guidelines. The procedures must also provide flexibility for individuals who need immediate
SSN documentation, but cannot provide the required evidentiary documents due to circumstances
beyond their control (i.e., victims of natural and unnatural disasters). Specific examples of
situations where we have experienced a large number of requests include displaced individuals as
a result of Hurricane Katrina and the September 11, 2001 terrorist attacks.

Our responses to the specific recommendations are provided below.

Recommendation 1

Revise applicable Federal regulation and SSA policy governing individuals’ right to access their
personal information maintained in the Agency’s system of records. Specifically, we believe
these individuals should be required to present the same type of identity documents as
replacement Social Security card applicants.

Response

We partially agree. We believe that the applicable regulation (20 CFR 401.45) and policies for
verifying identity are sufficient and establish requirements consistent with OMB Privacy Act
Guidelines for providing individuals access to their records. These guidelines indicate that
identity requirements should be kept to a minimum and ensure an individual is not granted
improper access to records pertaining to another person. The guidelines also state that identity
requirements should not unduly impede the individual’s right to access. Imposing additional
requirements for establishing identity may hinder the individual’s legitimate right of access to
his/her records and create an unnecessary workload for employees who receive these requests.
Nevertheless, we acknowledge the threat of identity theft, and agree to evaluate the effectiveness
of improved controls to be implemented and will evaluate the current regulatory requirements to
determine what additional regulatory or non-regulatory measures may be used to make disclosure
of SSN printouts less vulnerable while ensuring that individuals’ Privacy Act rights are not
violated.

Current Program and Operations Manual System (POMS) instructions are very clear regarding
the purpose of the SSN card compared to the SSN Printout. While the documents needed for
identity purposes are not as stringent for an SSN Printout, the Numident does contain special
indicator codes alerting personnel to verify identity. These special indicator codes may also

                                               H-2
prevent an SSN Printout from printing. Refer to RM 00202.320.F. Procedure – SSN Verification
Printout Request Generates Alert.

Recommendation 2

Establish an acceptable number of SSN Printouts an individual may obtain in a day, year or
lifetime, and require specific management approval for requests exceeding that number.

Response

We partially agree. The Privacy Act establishes an individual’s right of access to records
maintained by Federal agencies without limiting the number of times those records can be
requested. An SSN Printout is a record of an individual held by the Agency, and the Privacy Act
and OMB Privacy Act guidelines do not limit access to such information. Additionally, the
Agency’s efforts to establish a limited number of times an individual may request SSN Printouts
may be arbitrary in nature and may have a negative effect on his/her legitimate right of access to
this information. Nevertheless, we acknowledge the need to balance responsibility for protecting
SSNs with the obligation of providing individuals access to personal information in SSA’s
possession. Thus, we will assess the impact of limiting the number of SSN Printouts individuals
may request on their Privacy Act rights.

We also have considerable concerns regarding the resources that would be necessary to
implement the restrictions in this recommendation, since no misuse cases have been identified as
a result of the generation of multiple printouts. As part of our efforts to prevent abuse or misuse
of SSN Printouts, current POMS RM 00202.320.C.2 states, "In general, you should issue no
more than one verification printout to a requestor at the same interview/same day." However,
the policy as written allows the interviewer flexibility to issue multiple printouts if needed or
requested.

Recommendation 3

Establish procedures to perform routine integrity reviews of anomalies involving the issuance of
SSN Printouts. Any cases involving potential SSN misuse should be referred to OIG.

Response

We partially agree. These actions will be captured through the Web-based Comprehensive
Integrity Review Process (CIRP), which is scheduled for implementation in fiscal year 2008. We
do not believe there is a need to establish special procedures for these cases. If abuse or misuse
cases are identified through routine CIRP reviews, they will be referred to OIG for further action.




                                                H-3
Recommendation 4

Consider developing a system or application similar to the SS-5 Assistant to document and track
actions taken to issue an SSN Printout.

Response

We agree that it is important to track actions taken to issue an SSN Printout. We believe we
currently have systems in place to obtain that data through the Audit Trail System and, by late
fiscal year 2008, these actions will be captured through the WEB based CIRP process which is
being developed. Also, as described in our response to recommendation 3, CIRP will track both
Numidents and NUMI Lites (SSN Printouts). In addition to targeted criteria designated to
monitor transactions involving sensitive queries, Web CIRP will also provide anomaly reports
and listings of sensitive queries performed by each employee sortable by SSN, type and date.
The Integrity Review Handbook contains instructions on the review and certification of potential
fraud or abuse cases. Our POMS GN 04100 contains additional procedures for referral of cases
to OIG.

Recommendation 5

Develop and disseminate management information for the SSN Printout workload to responsible
SSA personnel. At a minimum, the information should enable managers to identify anomalies in
the number of SSN Printouts issued by field offices and to numberholders.

Response

We partially agree. As indicated in our response to recommendation number 4, CIRP will make
information available to managers on the verifications processed. We do not believe that
multiple printouts alone are indicators of possible fraud, abuse or misuse. We reviewed the
multiple printout cases identified in this audit and determined that none involved fraud, abuse or
misuse.

Recommendation 6

Clarify SSA policies and the SSN Printout language to consistently communicate the Agency’s
official position as to whether the document is valid for SSN verification purposes.

Response

We agree. While our statement on the printout and policy clearly states, “the Social Security
card is the official verification of a Social Security number,” we agree that the SSN Printout can
be confusing for the public and third parties as the title "SSN Verification Printout" is
misleading. We will clarify POMS instructions and the wording on the SSN Printout to provide
a consistent message; i.e., that the SSN Printout is not an official verification of an SSN. These
actions will be completed by December 31, 2007.


                                                H-4
Recommendation 7

Extend outreach to employers, Department of Motor Vehicles (DMV) and other third parties in
areas where the demand for SSN Printouts is high to raise the awareness that SSA offers
verification services.

Response

We agree. We will continue our outreach efforts with employers regarding the procedures and
types of SSN verification services we provide. We will also remind our employees who perform
outreach activities with DMVs and other third parties to raise the awareness that we offer various
verification services.

Recommendation 8

Issue a reminder to field office staff that SSN Printouts should only be issued when the
numberholder expresses an immediate need for a verification of the SSN.

Response

We disagree. Current policy does not dictate that the number holder express an "immediate
need" for this information. As previously noted, the Privacy Act protects an individual’s right to
access his or her records. Furthermore, OMB’s Privacy Act guidelines indicate that the granting
of access may not be conditioned upon any requirement to state a reason or otherwise justify the
need to gain access to a particular record.




                                               H-5
                                                                       Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Shane Henley, Auditor

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-27112.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
